8:20-cv-00177-JFB-MDN Doc # 39 Filed: 10/29/20 Page 1 of 6 - Page ID # 317

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA

JEFFERY ANGELO CAMPBELL,
Plaintiff,

8:20CV177
vs.

SYLVIA BETTA-COLE, D.H.H.S, Division
Children Family Services; MELISSA A.
SMITH, JOHN HERDMAN, LISA M.
GONZOLAS, REGGIE RYDER, and STATE
OF NEBRASKA,

MEMORANDUM AND ORDER

Defendants.

This matter is before the Court on Defendants John Herdman’s, Lisa Gonzolas’s,
Sylvia Betta Cole’s, Department of Health and Human Services’, Division of Children and
Family Services’, Reggie Ryder’s, and the State of Nebraska’s (collectively “Defendants”)
motions to dismiss. Filing Nos. 18, 28, and 33. Plaintiff is pro se. Plaintiff Jeffery Angelo
Campbell (hereinafter “Plaintiff’) opposes these motions to dismiss. Filing Nos. 30, 32,
and 37. Also, before the Court, is Plaintiffs motion for default judgment against defendant
Melissa Smith. Filing No. 25. Plaintiff brought this lawsuit alleging defendants violated
42 U.S.C. § 1983. Filing No. 1 at 5 & 22. As a remedy for this alleged misconduct,
Plaintiff seeks, among other requests, an order invalidating a state-court judgment that
terminated his parental rights of his two minor children and $15,000 in damages. Filing
No. 1 at 12-13 & 18-19; see also Filing Nos. 1-1 at 39-41,29 at 1, and 34 at 2.

1

8:20-cv-00177-JFB-MDN Doc # 39 Filed: 10/29/20 Page 2 of 6 - Page ID # 318

BACKGROUND
On May 7, 2020, Plaintiff filed the above-captioned lawsuit pursuant to 42 U.S.C.
§ 1983. Filing No. 1 at 5 & 22. The events giving rise to Plaintiffs claims occurred in
2013-2015. Id. at 11. Plaintiff is the father of two boys - Teegan and Skylar Campbell.
Filing No. 1 at 16; see also Filing No. 1-1 at 7, 35 & 39.
In October 2013, Sylvia Betta Cole (hereinafter “Ms. Cole”) a Department of Health
and Human Services worker, called Plaintiff regarding “the situation with [plaintiffs wife]
giving the boys up.” Filing No. 1 at 4 & 16. On the call, Ms. Cole stated Plaintiff needed
a mental exam and “placement done.” Filing No. 1 at 16. Ms. Cole also stated Plaintiff
would not have contact with the children until the assessment was finished. Id. In June
2014, an assessment was scheduled, but Plaintiff was not able to attend. Id. at 17.
A second assessment was scheduled on January 2015, with Dr. John Herdman
(hereinafter “Dr. Herdman”). Filing No. 1 at 18. Based on Dr. Herdman’s assessment
which he later allegedly recanted in the termination of parental rights (“TPR”) trial, Plaintiff
was diagnosed with “a multi-personality disorder and narcissistic.” Id. at 18 & 20. Dr.
Herdman requested that Plaintiff have no contact with the children even though Plaintiff
had “no prior [children protective service], driving, criminal, medical or mental record.” Id.
Just before the TPR trial started, Melissa Smith (hereinafter “Melissa”) who was
the foster mom of Teegan and Skylar Campbell, allegedly tried to “coerce[]” Plaintiff “into
signing his rights, threatened future rights to any children he may have and denied him
contact after the TPR Trial.” Filing No. 1 at 4, 6, 12, 17, & 19; see also Filing No. 1-1 at
83. Plaintiff refused to sign his rights over and proceeded to the TPR trial, where Judge
Reggie Ryder (hereinafter “Judge Ryder”) terminated his parental rights of his two minor
children. Filing No. 1 at 18-20.
2

8:20-cv-00177-JFB-MDN Doc # 39 Filed: 10/29/20 Page 3 of 6 - Page ID # 319

Based on the above conduct, Plaintiff believes the juvenile court’s decision was
unfair and that he was “railroaded” by the court system and various people involved in the
proceedings. Filing No. 1 at 6, 12, 18, & 21. Plaintiff specifically claims that Defendants
misled the Court to “illegally kidnap the plaintiffs 2 children” without the proper due
process in violation of Plaintiffs 14th Amendment right. Filing No. 1 at 6. Plaintiff further
claims that defendant Judge Ryder “never vetted the process or ask[ed] the proper
questions] to have a fair trial” and that defendant Melissa tried to “coerce[]” Plaintiff “into
[waiving] his rights before the trial started.” Id.
II.

STANDARD OF REVIEW

When reviewing a pro se complaint, the Court must give it the benefit of a liberal
construction. Haines v. Kerner, 404 U.S. 519, 520 (1972). A “liberal construction” means
that if the essence of an allegation is discernible, the district court should construe the
plaintiffs complaint in a way that permits his or her claim to be considered within the
proper legal framework. Solomon v. Petray, 795 F.3d 777, 787 (8th Cir. 2015).
However, even pro se complaints are required to allege facts which, if true, state
a claim for relief as a matter of law. Martin v. Aubuchon, 623 F.2d 1282, 1286 (8th Cir.
1980); see also Stone v. Harry, 364 F.3d 912, 914-15 (8th Cir. 2004) (stating that federal
courts are not required to “assume facts that are not alleged, just because an additional
factual allegation would have formed a stronger complaint”). In addition, affording a pro
se complaint the benefit of a liberal construction does not mean that procedural rules in
ordinary civil litigation must be interpreted so as to excuse mistakes by those who
proceed without counsel. See McNeil v. United States, 508 U.S. 106, 113 (1993).
Subject matter jurisdiction is a threshold issue for this Court. See Steel Co. v.
Citizens fora Better Env’t, 523 U.S. 83, 94-96 (1998); see also Arbaugh v.Y&H Corp.
3

8:20-cv-00177-JFB-MDN Doc # 39 Filed: 10/29/20 Page 4 of 6 - Page ID # 320

546 U.S. 500, 507 (2006) (“The objection that a federal court lacks subject-matter
jurisdiction . . . may be raised by a party, or by a court on its own initiative, at any stage
in the litigation, even after trial and the entry of judgment.”). The party seeking to invoke
federal jurisdiction carries the burden of proof on that issue. See DaimlerChrysler Corp.
v. Cuno, 547 U.S. 332, 342 (2006); V S Ltd. P’ship v. Dep’t of Hous. & Urban Dev., 235
F.3d 1109, 1112 (8th Cir. 2000). “[I]f a plaintiff’s allegations of jurisdictional facts are
challenged by the defendant; the plaintiff bears the burden of supporting the allegations
by competent proof.” Thomas v. Gaskill, 315 U.S. 442, 446 (1942).
A complaint can be challenged for lack of subject matter jurisdiction under Fed. R.
Civ. P. 12(b)(1) either “on its face or on the factual truthfulness of its averments.” Titus v.
Sullivan, 4 F.3d 590, 593 (8th Cir. 1993). “In a facial challenge to jurisdiction, all of the
factual allegations concerning jurisdiction are presumed to be true and the motion is
successful if the plaintiff fails to allege an element necessary for subject matter
jurisdiction.” Id. In a factual attack on the jurisdictional allegations of the complaint,
however, the court can consider competent evidence such as affidavits, deposition
testimony, and the like in order to determine the factual dispute. Id.
Under 28 U.S.C. § 1332, the district courts “shall have original jurisdiction over all
civil actions where the matter in controversy exceeds the sum or value of $75,000. . . and
is between citizens of different states.” 28 U.S.C. § 1332(a)(1); “Diversity jurisdiction
“requires . . . complete diversity of citizenship among the litigants.’” Jet Midwest Int'l Co.,
Ltd v. Jet Midwest Grp., LLC, 932 F.3d 1102, 1104 (8th Cir. 2019) (quoting OnePoint
Sols., LLC v. Borchert, 486 F.3d 342, 346 (8th Cir. 2007) (citing 28 U.S.C. § 1332(a)).
Complete diversity “exists where no defendant holds citizenship in the same state where
any plaintiff holds citizenship.” Borchert, 486 F.3d at 346; see also Owen Equip. &
4

8:20-cv-00177-JFB-MDN Doc # 39 Filed: 10/29/20 Page 5 of 6 - Page ID # 321

Erection Co. v. Kroger, 437 U.S. 365, 373 (1978) (“Diversity jurisdiction does not exist
unless each defendant is a citizen of a different State from each plaintiff.”). Statutes
conferring diversity jurisdiction upon the federal courts are to be strictly construed. Owen
Equip., 437 U.S. at 377.
The Rooker-Feldman doctrine provides that, with the exception of habeas corpus
petitions, lower federal courts lack subject matter jurisdiction over challenges to state
court judgments and state proceedings. Mosby v. Ligon, 418 F.3d 927, 931 (8th Cir.
2005). See D.C. Court of Appeals v. Feldman, 460 U.S. 462, 476 (1983); Rookerv. Fid.
Trust Co., 263 U.S. 413 (1923).

Specifically, the doctrine “bars federal courts from

hearing cases brought by the losing parties in state court proceedings alleging ‘injury
caused by the state court judgment and seeking review and rejection of that judgment.’”
Mosby, 418 F.3d at 931 (quoting Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544
U.S. 280 (2005)). The Rooker-Feldman doctrine also applies to state proceedings that
are essentially judicial in nature. Feldman, 460 U.S. at 467. See also Ballinger v. Culotta,
322 F.3d 546, 548 (8th Cir. 2003).
III.

DISCUSSION

The Court has carefully reviewed all three motions to dismiss and for the reasons
set forth below grants all three motions.
All defendants have filed a motion to dismiss for lack of lack of subject matter
jurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1). Filing Nos. 18, 28, and
33. Defendants argue that the Rooker Feldman Doctrine bars Plaintiffs claim. Filing Nos.
19 at 5-6, 29 at 4-5, and 34 at 6-7. Plaintiff brought this lawsuit alleging defendants
violated 42 U.S.C. § 1983. Filing No. 1 at 5 & 22. There is no federal question jurisdiction
because Plaintiffs claims are “inextricably intertwined” with a state court judgment. The
5

8:20-cv-00177-JFB-MDN Doc # 39 Filed: 10/29/20 Page 6 of 6 - Page ID # 322

Plaintiff is basically unhappy with the state court determination.

Rooker-Feldman

prohibits this Court from deciding “challenges to state court judgments and state
proceedings.” Mosby, 418 F.3d at 931. Plaintiff seeks an order invalidating a state-court
judgment that terminated his parental rights of his two minor children. Filing No. 1 at 1819; see also Filing Nos. 1 -1 at 39-41,29 at 1, and 34 at 2. The Court has no jurisdiction
over this case.1
Because the Court does not have jurisdiction, the Court will not rule on Plaintiffs
motion for default judgment against defendant Melissa Smith. Filing No. 25.
THEREFORE, IT IS ORDERED:
1. Defendants’ motions to dismiss (Filing Nos. 18, 28, and 33) are granted.
2. Plaintiffs motion for default judgment (Filing No. 25) is neither granted nor
denied.
3. A separate judgment will be entered in accordance with this memorandum
and order.
Dated this 29th day of October, 2020.

BY THE COURT:

s/ Joseph F. Bataillon
Senior United States District Judge

1 In addition, there is no diversity jurisdiction because the Plaintiff and defendants are all domiciled in the
state of Nebraska, and for the reasons set forth herein. Filing No. 1 at 22.

6

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3479
Jeffery Angelo Campbell
Plaintiff - Appellant
v.
Sylvia Betta-Cole; Department of Health and Human Services, Division Children Family
Services, also known as D.H.H.S.; Melissa A. Smith; John Herdman; Lisa M. Gonzolas; Reggie
Ryder; State of Nebraska
Defendants - Appellees
Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:20-cv-00177-JFB)
JUDGMENT
Before COLLOTON, STRAS, and KOBES, Circuit Judges.
The appellees' motions to dismiss the appeal are denied. This court has reviewed the
original file of the United States District Court. It is ordered by the court that the judgment of the
district court is summarily affirmed. See Eighth Circuit Rule 47A(a).
March 09, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-3479

Page: 1

Date Filed: 03/09/2021 Entry ID: 5012515

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3479
Jeffery Angelo Campbell, I
Appellant
v.
Sylvia Betta-Cole, et al.
Appellees

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:20-cv-00177-JFB)
ORDER
The petition for rehearing by the panel is denied.
April 12, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

Appellate Case: 20-3479

Page: 1

Date Filed: 04/12/2021 Entry ID: 5024206

Additional material
from this filing is
available in the
Clerk's Office.

